<html>
<title> - NOMINATION</title>
<body><pre>[Senate Hearing 107-281]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-281

                               NOMINATION

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                                   ON

   JOHN L. HENSHAW, OF MISSOURI, TO BE ASSISTANT SECRETARY OF LABOR, 
             OCCUPATIONAL SAFETY AND HEALTH ADMINISTRATION

                               __________

                             AUGUST 2, 2001

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions

                                _______

                  U.S. GOVERNMENT PRINTING OFFICE
74-504                     WASHINGTON : 2001


____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001
?

          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

               EDWARD M. KENNEDY, Massachusetts, Chairman

CHRISTOPHER J. DODD, Connecticut     JUDD GREGG, New Hampshire
TOM HARKIN, Iowa                     BILL FRIST, Tennessee
BARBARA A. MIKULSKI, Maryland        MICHAEL B. ENZI, Wyoming
JAMES M. JEFFORDS (I), Vermont       TIM HUTCHINSON, Arkansas
JEFF BINGAMAN, New Mexico            JOHN W. WARNER, Virginia
PAUL D. WELLSTONE, Minnesota         CHRISTOPHER S. BOND, Missouri
PATTY MURRAY, Washington             PAT ROBERTS, Kansas
JACK REED, Rhode Island              SUSAN M. COLLINS, Maine
JOHN EDWARDS, North Carolina         JEFF SESSIONS, Alabama
HILLARY RODHAM CLINTON, New York     MIKE DeWINE, Ohio

           J. Michael Myers, Staff Director and Chief Counsel

             Townsend Lange McNitt, Minority Staff Director

                                  (ii)

  




                            C O N T E N T S

                               __________

                               STATEMENTS

                        THURSDAY, AUGUST 2, 2001

                                                                   Page
Kennedy, Hon. Edward M., a U.S. Senator from the State of 
  Massachusetts..................................................     1
Gregg, Hon. Judd, a U.S. Senator from the State of New Hampshire.     2
Wellstone, Hon. Paul D., a U.S. Senator from the State of 
  Minnesota......................................................     3
Enzi, Hon. Michael B., a U.S. Senator from the State of Wyoming..     6
Henshaw, John L., Director of Environment, Safety, and Health, 
  Astaris, LLC, St. Louis, MO....................................    10

                          ADDITIONAL MATERIAL

Articles, publications, letters, etc.:
    Senator Carnahan.............................................    22

                                 (iii)

  

 
                               NOMINATION

                              ----------                              


                        THURSDAY, AUGUST 2, 2001

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:02 a.m., in 
room SD-430, Dirksen Senate Office Building, Senator Kennedy 
(chairman of the committee) presiding.
    Present: Senators Kennedy, Wellstone, Clinton, Gregg, and 
Enzi.

                  Opening Statement of Senator Kennedy

    The Chairman. The committee will come to order.
    Today the Committee considers the nomination of John 
Henshaw to be Assistant Secretary of Labor for the Occupational 
Safety and Health Administration. The head of OSHA plays a 
central role in ensuring that our Nation's workplaces are 
healthy and safe, and Mr. Henshaw is well-qualified for this 
important responsibility.
    I commend Mr. Henshaw for his impressive record of 
achievement and his clear commitment to workplace health and 
safety programs. He has nearly 30 years of experience in the 
field, working as an industrial hygienist, an industrial 
hygiene director, and most recently as director of environment, 
safety and health for an international corporation. He has 
served skillfully in each of these capacities, and throughout 
his career, he has shown a commitment to strong health and 
safety protections.
    Mr. Henshaw will need those qualities at OSHA. Congress 
passed the Act in 1970 to guarantee every worker a safe and 
healthy working environment; OSHA was created to set and 
enforce the standards needed to achieve this promise.
    Clearly, we need continuing vigorous enforcement of OSHA's 
responsibilities. Since 1971 when OSHA was created, workplace 
fatalities have been cut in half, and occupational injury and 
illness rates have declined by 40 percent.
    Reductions in workplace fatalities and injuries have been 
much greater in industries where OSHA has targeted its 
standards and enforcement. By the year 2000, the fatality rate 
in manufacturing had declined by 63 percent and the injury rate 
by 37 percent since passage of the Act. Similarly in 
construction, the fatality rate had declined by 79 percent and 
the injury rate by 55 percent.
    OSHA's actions save lives. Before OSHA issued its cotton 
dust standard in 1978, several hundred thousand textile 
industrial workers developed brown lung, a crippling and 
sometimes fatal respiratory disease. In 1978, there were an 
estimated 40,000 cases, amounting to 20 percent of the 
industry's work force. By 1985, the rate had dropped to one 
percent.
    OSHA's standards also save money for employers and increase 
productivity. Compliance with OSHA's vinyl chloride standard 
led to improvements in the production process, increased 
profits, and lowered worker exposures. The OSHA cotton dust 
standard enhanced investment in the textile industry, making 
textile mills more productive and healthier for workers.
    Despite these advances, there is much more to be done. 
Although injury and fatality rates are falling, too many 
workers are being killed and injured on the job. In 1998, 6,000 
workers died from traumatic injuries, and more than 50,000 died 
from occupational diseases. More than 5.9 million workers were 
injured on the job.
    On an average day, 153 workers lose their lives as a result 
of workplace injuries and illnesses, and another 16,000 are 
injured. That is one workplace death or injury every 5 seconds.
    We know the enormous human cost imposed by occupational 
illness and injury. All we need to do is to ask the families of 
workers like Fredi Canales, killed on the job at a garbage-
sorting plant when he fell from a beam to which he had climbed 
to clear jammed garbage from a giant sorting machine.
    We owe it to working men and women of this country to do 
better, and there are numerous ways in which the next 
administrator of OSHA can do better.
    We need a strong new ergonomics rule. Ergonomic injuries 
are the most serious health and safety issue facing workers 
today. Nearly 2 million workers will suffer such injuries this 
year, resulting in economic losses of over $50 billion.
    Workers deserve a strong ergonomics standard to protect 
them from these painful and often crippling injuries. The 
standard should be based on the best available evidence and 
should emphasize the prevention of injuries before they occur.
    OSHA must also maintain a fair balance between enforcement 
and compliance assistance. I strongly support efforts to 
encourage voluntary employer compliance with OSHA rules, but 
those efforts must be accompanied by a commitment to vigorous 
enforcement action as well.
    Other priorities are important for OSHA, too, including 
occupational exposure to tuberculosis, protection for workers 
exposed to beryllium, employers' payment for personal 
protective equipment, health and safety programs in all 
workplaces, permissible exposure limits for toxic chemicals, a 
new standard on silica, and protections for immigrant workers, 
especially those in the most dangerous jobs.
    So we look forward to Mr. Henshaw's testimony today and to 
working closely with him in this and many other pressing issues 
of worker health and safety.
    Senator Gregg?

                   Opening Statement of Senator Gregg

    Senator Gregg. Thank you, Mr. Chairman.
    Mr. Henshaw, it is a pleasure to have you here today. I 
notice you have a fair amount of family with you also.
    Mr. Henshaw has a long and distinguished career of more 
than 25 years as a corporate health and safety executive, and I 
am pleased that he is now willing to bring that sort of hands-
on, real life experience into the public sector where it is 
sorely needed.
    In the 21st century, OSHA will, like the rest of the 
Department of Labor, face a great many tests as it tries to 
address the challenges of the new millennium. From ergonomics 
to employer-employee cooperation to rules that respond to the 
emerging flexible workplace of the 21st century, OSHA will play 
a very large role and, as has been outlined by Senator Kennedy, 
has played a large role in protecting workers in America.
    I am encouraged that the President has nominated such an 
extraordinarily highly capable person who has demonstrated a 
commitment to the protection of employees' health in the 
workplace for this job. It is a critical job, and it is one 
which this committee has focused a great deal of attention on 
over the last few years.
    Therefore, I welcome you to this hearing and look forward 
to supporting your nomination.
    I am going to have to leave, Mr. Chairman, but I will leave 
the Republican side in the good hands of Senator Enzi, who is 
an extraordinarily talented individual, but especially a 
specialist on this issue.
    The Chairman. I am not trying to encourage long statements, 
but we have two individuals who are particularly interested and 
active on our committee. I would ask Senator Wellstone if he 
would say a word and then Senator Enzi, and then we will make a 
brief introduction and hear from our witness.

                 Opening Statement of Senator Wellstone

    Senator Wellstone. Thank you, Mr. Chairman.
    As the chair of the Subcommittee on Employment, Safety, and 
Training, I had a chance to meet with Mr. Henshaw, and I thank 
him for coming by. I thought it was an excellent meeting, and I 
really look forward to working with him.
    It is clear, Mr. Henshaw as the Senator from New Hampshire 
said, that you have rich professional experience in the area, 
and you are being nominated for I think one of the most 
important positions not only in the Department of Labor but in 
Government.
    I would ask, Mr. Chairman, that my full statement be 
included in the record, if that is all right.
    The Chairman. It will be so included.
    Senator Wellstone. OSHA has been in existence for 30 years, 
and this is an agency that is extremely important. It is the 
best bet for millions of workers whose lives would otherwise be 
put on the line simply because they have to earn a paycheck, 
and they have got to work, and even if it is not civilized 
working conditions, and it is a risk to their lives, they have 
got to do it, and there has to be some protection. This is 
really OSHA's mission.
    Experience has shown over and over and over again that in 
the absence of strong Government-mandated safeguards, the 
results are workplace exposures to everything from odorless 
carcinogens to repetitive stress to combustible grain dust and 
other dangers are all out there, and they are too numerous to 
mention. So this is a critically important position you will 
have when it comes to protecting workers and their children and 
their families.
    Earlier in the week, we had a hearing on the devastating 
impact of asbestos. It was one of the most dramatic hearings 
that I have ever attended. At one point, Senator Baucus was 
talking about the guilt of one of the workers because he would 
come home and hug his children and be with his family, and it 
turned out the problem of asbestosis and mesothelioma was 
transferred to them as well through the dust on his clothing. 
There was no protection for this worker.
    Mr. Chairman, since its founding, hundreds of thousands of 
workers did not die in the workplace because of OSHA. This is 
an agency with a record of real success. We have seen a 50 
percent reduction in workplace fatalities between December of 
1970 and December of 2000. OSHA can be proud of that. And the 
occupational injury and illness rate has dropped 40 percent. 
OSHA can be proud of that.
    If you look at industries which have had the most dramatic 
decline, it has been in some of those industries, for example, 
manufacturing and construction, where OSHA was most involved. 
Sometimes you have seen the fatality rate decline by 60 percent 
and the injury rate by 33 percent. So it is an important agency 
that I think has done a good job.
    Let me simply say that I think the message from OSHA to 
workers has to be ``You are not expendable.'' And I think the 
message to companies is that the private sector is critically 
important to our country, and you have the right to run your 
business and maximize profits in any way you want to up to the 
point where you start injuring or killing workers. Then you 
cannot. Then the Government steps in.
    That is what the Government and that is what OSHA is 
supposed to do.
    Mr. Chairman, I had a chance to look at the legislative 
history of OSHA, and I want to finish with a quote. And Mr. 
Henshaw, you seem like the kind of man who would be moved by 
this from what I know of you, and all of your family I think 
will probably feel the same way.
    This quote is from Senator Yarborough when the legislation 
first passed. This is what he said about the argument that OSHA 
protection would be too expensive: ``One may well ask, Too 
expensive for whom? Is it too expensive for the company who, 
for lack of proper safety equipment, loses the service of its 
skilled employees? Is it too expensive for the employee who 
loses his hand or leg or eyesight? Is it too expensive for the 
widow trying to raise her children on a meager allowance under 
workmen's comp and Social Security? And what about the man, a 
good, hardworking man''--and we should add ``woman''--``tied to 
a wheelchair or hospital bed for the rest of his life? That is 
what we are dealing with when we talk about industrial safety. 
We are talking about people's lives, not the indifference of 
certain cost accountants.''
    That is the importance of your job. I look forward to 
working with you. I look forward to the testimony. I have I 
hope some important questions. Thank you for your commitment to 
public service.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Wellstone follows:]

            Prepared Statement of Senator Paul D. Wellstone

    Mr. Chairman, I want to join you in welcoming Mr. Henshaw 
before our committee today. And I want to thank you, Mr. 
Henshaw, for taking the time to meet with me earlier this week.
    It is clear that you have sound professional experience in 
the occupational safety and health arena-and for that we are 
grateful. In my mind the position for which you have been 
nominated-the read of the Occupational Safety and Health 
Administration (OSHA)-is one of the most important positions at 
the Department of Labor.
    In its thirty years of existence OSHA has made its presence 
felt in the lives of tens of millions of Americans at all 
levels of the workforce. OSHA and its related agencies are 
literally the last, best hope for millions of American workers 
whose lives would otherwise be put on the line simply because 
they need to earn a paycheck. Experience has shown, over and 
over, that the absence of strong government-mandated safeguards 
results in workplace exposure to everything from odorless 
carcinogens to repetitive stress to combustible grain dust to 
other dangers too numerous to mention.
    Earlier this week we held hearings on the devastating 
impact of asbestos in the workplace. OSHA's role in protecting 
workers from this hideous poison is extremely important.
    Mr. Chairman, since its founding, hundreds of thousands of 
American workers did not die on the job thanks to OSHA. 
Workplace fatalities have declined 50 percent between December 
1970 and December 2000, while occupational injury and illness 
rates have dropped 40 percent.
    Not surprisingly, declines in workplace fatalities and 
injuries have been most dramatic in precisely those industries 
where OSHA has targeted its activities. Let's take, for 
example, the manufacturing and construction sectors. Since OSHA 
came into existence, the manufacturing fatality rate has 
declined by 60 percent and the injury rate by 33 percent. Also 
during this period, construction fatality rates have declined 
by 80 percent and injury rates by 52 percent.
    Mr. Chairman, it is not a coincidence that these rates have 
fallen in these two industries which are also ones that have 
received some of OSHA's closest attention.
    OSHA's role in assuring so far as possible that every 
worker is protected from on-the-job hazards cannot be denied. A 
strong OSHA voice is a way of saying to the American worker: 
``you are not expendable.''
    It is a way of saying to businesses: ``yes, you have a 
right to run your business and to maximize your profits. But 
you are only free to do that up to the point where you start 
injuring or killing your workers. Your freedom to pursue that 
profit ends at that point.''
    That's where government-that's where OSHA-is supposed to 
step in to protect workers.
    That's why this nomination is so important. That's why, Mr. 
Henshaw, the burden of responsibility is so heavy.
    I recently had occasion to look at some of the legislative 
history from when the Occupational Safety and Health Act was 
passed. I mentioned this at our recent hearings on repetitive 
stress injuries. I think it's well worth repeating here.
    When the Occupational Safety and Health Act was passed, 
there was much talk of whether it would be ``too expensive'' to 
implement. Senator Yarborough at the time addressed those 
concerns. What he had to say then is just as fitting today:
    ``One may well ask too expensive for whom? Is it too 
expensive for the company who for lack of proper safety 
equipment loses the services of its skilled employees? Is it 
too expensive for the employee who loses his hand or leg or 
eyesight? Is it too expensive for the widow trying to raise her 
children on meager allowance under Workmen's Compensation and 
Social Security? And what about the man-a good hardworking man-
tied to a wheel chair or hospital bed for the rest of his life? 
That is what we are dealing with when we talk about industrial 
safety . . . we are talking about people's lives, not the 
indifference of some cost accountants.''
    So Mr. Henshaw, I look forward to hearing your views on how 
you will shoulder this immense responsibility. I look forward 
to hearing what you will do to ensure that OSHA can continue to 
be a force for protecting worker health and safety-for ensuring 
workers that indeed they are not expendable.
    Thank you.
    The Chairman. Thank you.
    Senator Enzi?

                   Opening Statement of Senator Enzi

    Senator Enzi. Thank you, Mr. Chairman. I appreciate this 
opportunity to make a statement.
    I had the opportunity also to meet with Mr. Henshaw earlier 
this week and was extremely impressed with what he has done, 
the organizations that he belongs to, and what he has inspired 
those organizations to do. I have had the opportunity to work 
with those organizations and know that they make a tremendous 
difference from the professional aspect of really reviewing 
what needs to be done in the workplace and seeing that it gets 
done.
    One of the things I am always fascinated with is that that 
is in spite of OSHA. When I came here, there was a tremendous 
effort to eliminate OSHA. I have not been part of that effort, 
and I have enjoyed working with Senator Wellstone and Senator 
Kennedy and others on the other side of the aisle and everybody 
on this side of the aisle to make OSHA more effective, to 
change the concentration a little bit from that attitude that 
all business is interested in is making money and hurting 
employees. I have not found that to be the case anywhere.
    We have a tremendous potential to help industry to 
understand what can be done, and you have the kind of 
credentials that can help them to understand that.
    I have got to say that the way that I got into this was 
being one of those ``cost accountants.'' I was doing some work 
for a client, and I went to him and said, ``Look how much it is 
costing you in employee accidents. You have tremendous 
potential here to change your bottom line.''
    And the guy said, ``OK, do it.''
    I said, ``Whoa, wait a minute. I am an accountant; I am not 
a safety guy. I do not do that kind of work.'' I looked like 
that fellow in the commercial on television.
    And he said, ``Well, you already know more about our safety 
problem than anybody else--so, do it.''
    So I got involved in safety at that point, and I can tell 
you that in a 3-year period, they got a national award for 
safety. Now, I relied a lot on people like you who have 
expertise in the area, but when business understands how they 
can help the worker and thereby help their business and thereby 
help their bottom line, they do it.
    I too am pleased that since OSHA went into effect, injuries 
have dropped 50 percent. But I went back and looked 20 years 
previous to that, and do you know--injuries dropped by 50 
percent. That is because business realized ways that they could 
improve their business by protecting workers. I think we should 
get that kind of reduction each and every year.
    My dad always said that if you are still talking about what 
you did yesterday, you have not done very much yet today. So 
the challenges are before us, and I think we have the right man 
for the job to begin the next era of OSHA, and I thank you for 
being committed and willing to take on this monstrous task; I 
know that you will do a good job.
    Mr. Chairman, I would ask that my full statement be 
included in the record.
    The Chairman. It will be included.
    [The prepared statement of Senator Enzi follows:]

                   Prepared Statement of Senator Enzi

    Thank you Mr. Chairman. Thank you Mr. Henshaw for appearing 
before the Committee today.
    I am pleased to announce my support for the appointment of 
John L. Henshaw as Assistant Secretary of Labor for the 
Occupational Safety and Health Administration (OSHA).
    As a highly respected occupational safety and health 
professional, Mr. Henshaw has demonstrated a strong commitment 
to reducing and preventing injuries and illnesses in the 
workplace. With over twenty-five years of experience in the 
field, he brings to the position technical expertise as well as 
a practical perspective on effectively addressing workplace 
safety issues.
    The broad support that Mr. Henshaw's nomination has 
received is a testament to his ability to work well among 
various constituencies in order to promote occupational safety 
and health. It is also a testament to the leadership skills he 
has exhibited in the private sector, most recently as the 
Director of Environment, Safety and Health at Astaris, and in 
professional organizations, as President of the American 
Industrial Hygiene Association and the Safety Council of 
Greater St. Louis.
    I am confident that OSHA's mission to save lives, prevent 
injuries and protect the health of America's workers will be 
well-served by Mr. Henshaw's appointment. I am particularly 
encouraged by Mr. Henshaw's proactive approach to workplace 
safety. Under his leadership, I hope to see OSHA commit 
resources to initiatives designed to prevent injuries from 
occurring.
    As the ranking member on the Employment, Safety and 
Training Subcommittee, as well as a former small business 
owner, I am extremely eager to work with Mr. Henshaw to improve 
two aspects of OSHA's functioning. First, I'd like to see OSHA 
consider and ultimately include the unique needs and 
limitations of small employers in all of the agency's 
regulatory operations. Second, I'd like to see OSHA devote 
energy towards the prevention of workplace injuries with more 
education and compliance activity.
    Mr. Chairman, we have before us an excellent nominee who 
possesses the skills, experience and character to bring OSHA to 
a new level of effectiveness in promoting workplace safety and 
health. I look forward to working with Mr. Henshaw towards this 
goal and I look forward to his speedy confirmation.
    I thank you Mr. Chairman.
    The Chairman. I would like to put this in a bit of context. 
During the Reagan administration, enforcement was weakened, and 
injury rates actually increased from 7.6 per 100 in 1983 to 8.9 
per 100 in 1992.
    During the Clinton administration, when the balance between 
enforcement and voluntary compliance was restored, injury rates 
fell from 8.6 per 100 in 1993 to 6.3 per 100 in 1999--the 
lowest in OSHA's history. So there may be an inevitability of 
companies trying to reduce injury rates, but we also see the 
result where there is a balance between enforcement and 
compliance, done effectively, which all of us want to see you 
do. We want you to be effective. We know that you have some 
different emphases, but we want it to be done effectively, so 
we can see some real progress.
    I want to apologize on behalf of Senator Bond and Senator 
Carnahan, both of whom communicated with me. Both had intended 
to be here, but they are currently involved in other activities 
on the floor and in committee, in a very important mark-up in 
the case of Senator Carnahan, as well as on the floor in terms 
of the appropriations bill. But they wanted to extend a very 
warm welcome and introduce you to the committee.
    [The prepared statement of Senator Bond follows:]

                   Prepared Statement of Senator Bond

    This morning I am delighted to introduce John Henshaw, a 
fellow Missourian who has been nominated for the position of 
Assistant Secretary of Labor for OSHA. I think the President 
has chosen exceptionally well for this position, he has 
certainly come to the right state. John Henshaw is the right 
person at the right time for this agency.
    He comes from the real world where companies survive or 
crumble depending on whether they can make sense of OSHA's 
regulations and edicts. I am pleased the new administration has 
decided to go with someone from the ``customer'' side of this 
equation. John's role in creating exemplary safety records for 
large chemical manufacturers has earned him respect and support 
from all sides of the workplace safety issue, including 
organized labor.
    His experience in the field has taught John what is needed 
to restore credibility and integrity to OSHA. Basic fairness 
suggests that if an agency is going tell an employer that they 
are not doing something properly, they should be able to help 
that employer do it better. Many businesses, especially the 
many small businesses that have come to me, complain that OSHA 
is merely out to harass employers without any interest in 
helping them.
    These are employers who truly want to make their workplaces 
safer, but have been frustrated when they turn to the agency 
for help. To really move forward in improving workplace safety, 
OSHA needs to reach out to these employers and provide more 
assistance so that they can learn how to do the right thing, 
instead of just focusing on punishing them when they have not 
lived up to their obligations. I am looking forward to John 
bringing a fresh perspective to this agency and making OSHA a 
resource for employers to use in solving their workplace safety 
problems, rather than just an agency they have to fear when 
they come calling.
    At the same time, I know that John will uphold OSHA's 
tradition of enforcement against those employers who violate 
the trust that employees place in them each day when they show 
up for work, and look forward to going home that evening in one 
piece. John knows that the customers of OSHA are not just the 
employers who must comply with OSHA's regulations, but also the 
employees who expect reasonable and responsible safety 
procedures in their workplace, as well as their children and 
families who count on them to return home at the end of the 
day.
    I am confident that the Senate will find John to be a 
superb choice for this position, and I am deeply grateful that 
he has been willing to take it on.
    So it is a pleasure to welcome John Henshaw, the 
President's nominee. He is a well-regarded and capable safety 
and health professional. He is director of environment, safety, 
and health at Astaris, LLC, located in St. Louis, MO. He has 
had extensive expertise in issues of workplace health and 
safety throughout his career, including his work at the 
Monsanto Company.
    Mr. Henshaw graduated from Appalachian State University in 
Boone, NC and did graduate work at the Universities of Delaware 
and Michigan.
    We are delighted to have you here today. I was reminded by 
my Republican colleague that, in the middle of my opening 
statement, there was a cry from a 3-year-old--in the middle of 
my statement, I would note. I said, ``That is good--usually, I 
put them to sleep.'' [Laughter.] But as a member of a very 
large family, I take special delight in seeing that many of the 
members of your family are here with you today. If you would be 
good enough to introduce them, and if they would stand, our 
committee would love to welcome them.
    Mr. Henshaw. Senator, in respect of time, I would like to 
introduce them all, and there are another 100 outside, but I 
will probably just introduce my immediate family if that is all 
right, in respect of time. [Laughter.]
    The Chairman. Fine.
    Mr. Henshaw. I will move from my right to left--my son, 
John Paul, and one grandchild--I have four--Emily; and John 
Paul's wife, Sandy; daughter, Whitney; and the little vocal 
one, Schuyler--and she will be vocal her entire life, so be 
prepared; my son-in-law, Rick; my mother, May; my wife, Jane--
and she is obviously a special person in my life, the brains 
and the beauty behind the whole thing; my daughter, Shannon; 
and my son, Josh.
    The Chairman. Very good.
    Mr. Henshaw. My sister is behind them, in blue, Carol; and 
Marilyn is on the other side; and their husbands, Arnie and 
Dick.
    And everybody else, I am just going to leave unsaid. They 
will get a chance to meet you, I am sure.
    The Chairman. Fine.
    Senator Wellstone. Mr. Chairman, I had some critical 
questions, but I am not going to ask them now.
    Mr. Henshaw. That is why I brought all of them. [Laughter.]
    The Chairman. We are glad to have you and look forward to 
your statement.

STATEMENT OF JOHN L. HENSHAW, DIRECTOR OF ENVIRONMENT, SAFETY, 
            AND HEALTH, ASTARIS, LLC, ST. LOUIS, MO

    Mr. Henshaw. Senator, I would like to start with my opening 
remarks.
    Good morning, Mr. Chairman and distinguished members of 
this committee. I appreciate the opportunity to appear before 
you today as President George W. Bush's nominee for Assistant 
Secretary of Labor for OSHA.
    I want to thank first of all my wife, Jane--and I will 
continue to thank her for my tenure in this position--and my 
family and friends for their encouragement and support. As you 
know, we are a product of our environment, and as I have 
already explained, I have a good part of my environment here 
today.
    If I am confirmed, this job will consume a great deal of my 
time and energy and require that I miss some of those family 
events that I would normally participate in. A commitment to 
public service and to fulfillment of the mandate under the 
Occupational Safety and Health Act is not an easy task, and I 
will depend on my family's continued support and understanding 
as I proceed with this mission.
    I have been in the business of safety and health for over 
25 years. I am committed to what I do, and I would not have 
even wanted to be considered for this position if I did not 
seriously believe that the administration shared this 
commitment. Like Secretary Chao, my top priority is the safety 
and health of the American worker. I want to make a positive 
difference in the safety and health of every working man and 
woman in this great country, and the Occupational Safety and 
Health Administration is where that objective can be realized. 
If confirmed, it would be my honor to work with Secretary Chao 
and with this committee to achieve our mutual goals.
    Over the last 25 years, I have served in several 
professional and corporate management positions in environment, 
safety, industrial hygiene, quality assurance and compliance 
assurance--which is auditing--for companies such as Monsanto 
Company, Solutia Incorporated and, most recently, Astaris LLC, 
a joint venture between Solutia and FMC Corporation, where I 
served as director of environment, safety, and health.
    During those years, I have also been very active in local 
and national professional and trade associations and served on 
numerous boards and committees associated with advancing safety 
and health. Make no mistake--there are thousands of dedicated 
managers, employees, association and union leaders, and safety 
and health professionals in this Nation who are working toward 
the same goal--effectively reducing workplace injuries and 
illnesses. I believe OSHA should be a leader in this collective 
effort. By working together with these stakeholders, we can 
impact a result that is greater than the sum of individual 
efforts.
    In my career, I have seen firsthand the value of properly 
developed and executed safety and health programs for large, 
medium, and small businesses--programs that fit the culture of 
the organization, programs that are effective, programs that 
work in achieving injury and illness reductions, programs that 
are consistently, forcefully, and fairly enforced.
    I have also seen and experienced the business 
interruptions, additional cost burdens, and resource diversions 
that poorly-conceived programs, regulations, and enforcement 
strategies have on today's business. Poorly-conceived programs 
not only waste limited resources; they also undermine the 
credibility of existing safety and health programs.
    In the business world today, where global competition is 
keen, health and safety professionals spend a considerable 
amount of time articulating the value and effectiveness of good 
safety and health programs. Improperly written programs or 
regulations that are costly and ineffective in achieving their 
intended purpose destroy or tarnish the value argument for 
safety and health in general.
    Mr. Chairman, the Occupational Safety and Health Act of 
1970 remains a model for the entire world. In my opinion, the 
workplaces in this country are the safest in the world because 
of OSHA and the collaborative and collective efforts it has 
inspired among employers, health and safety professionals, 
labor organizations, professional and trade associations.
    When the agency opened for business in April of 1971, a 
year before I started my education in this field, OSHA covered 
56 million workers at 3.5 million workplaces. Since then, 
workplace fatalities have been cut by 60 percent, and 
occupational injury and illness rates by 40 percent; while at 
the same time, U.S. employment has nearly doubled to now 105 
million workers at nearly 6.9 million worksites.
    I am a believer in OSHA.
    But those accomplishments provide us no resting point. The 
agency must continue to lead this Nation toward further 
reductions in injuries and illnesses. To be effective in this 
endeavor, OSHA must maintain a forceful and fair enforcement 
strategy using properly trained and skilled inspectors. Strong 
and consistent enforcement serves as a deterrent to those who 
may be tempted not to protect workers. Enforcement cannot be 
diminished.
    However, enforcement alone cannot reach all 6.9 million 
worksites. By design, it is reactive in nature and provides 
little proactive leadership in preventing workplace accidents 
and illnesses. In addition to effective enforcement, Congress 
has also instructed the agency in Section 2(b)(1) of the OSH 
Act to accomplish its charge, quote, ``by encouraging employers 
and employees in their efforts to reduce the number of 
occupational safety and health hazards at their places of 
employment and to stimulate employers and employees to 
institute new and to perfect existing programs providing safe 
and healthful working conditions.''
    OSHA must continue to utilize creative partnerships, 
voluntary programs like VPP that reach out to small and large 
business alike, state-of-the-art education and training 
programs, and effective compliance assistance.
    OSHA must use all the tools in its tool bag. The hammer 
must always be in our bag and used where necessary. But like a 
good craftsman, we must know how to use all our tools and to 
pick the right tool for the job.
    Thank you, Mr. Chairman, for the opportunity to meet with 
you today. I look forward to working with you and the 
distinguished members of this committee as well as President 
Bush, Secretary Chao, the career professionals in OSHA, 
employers, employees, safety and health professionals and their 
societies, labor and trade organizations, and many others as we 
continue to reduce injuries and illnesses and to assure a safe 
and healthful workplace for all working men and women of this 
country.
    Thank you. I will be glad to answer any questions.
    The Chairman. Thank you very much, Mr. Henshaw.
    We will have 8-minute rounds for questions, and I will ask 
staff to remind us of the time.
    Let me ask you, Mr. Henshaw, if you are confirmed as 
Assistant Secretary for OSHA, what will be your major workplace 
safety and health priorities? Let me ask it a little 
differently. What do you think are the major problems and what 
will be the major priorities? Maybe that is the same question, 
but it might not necessarily be.
    Mr. Henshaw. Mr. Chairman, coming from the private sector, 
I can speak from where I see the agency, and once confirmed, I 
will get more involved in the detail. But in general terms, 
these are what I see as the issues, and they are fairly simple 
in the sense that I see my mission as to improve the 
credibility and effectiveness of OSHA, of the agency. To me, 
that means really four different areas.
    One area is strong and effective enforcement, and to be 
effective, we have to have competent inspectors, as I mentioned 
in my opening statement, and we have to have proper enforcement 
strategies.
    The second point is we want to focus on outreach and 
education--and to that, we have to understand our customers, 
all the individuals who have to comply with these regulations 
and rules--and advance safety and health. We have got to 
provide the proper outreach and the proper education to make 
that happen.
    The third point is to encourage and improve voluntary 
efforts. There are a lot of voluntary efforts out there today, 
and I would like to do my best to improve those; they are very 
productive.
    Finally, I think OSHA should be the leader in the national 
dialogue in advancing safety and health. I think that in the 
past, we may not have taken the opportunity to be that leader. 
I think there are so many resources out there trying to do the 
same thing and that OSHA ought to be taking a leadership role 
in advancing that dialogue.
    The Chairman. We note that there has been a reduction in 
the President's budget proposal, which you obviously had no 
control over, by $1.2 million, which translates into a real 
decrease of 3 or 4 percent and the loss of 94 full-time-
equivalent jobs. So you are going to be heavily pressed, and I 
think you will find after your confirmation, which I am 
confident of, that the committee will want to make sure that 
you have the kinds of both resources and personnel that are 
necessary for you to do the job.
    One of the major challenges that you are very familiar with 
is the length of time it takes for OSHA--approximately 10 
years--to develop and issue safety and health standards, even 
when the hazards are well-recognized, and there is agreement 
that regulation is needed.
    Have you thought about what can be done to speed up the 
standard-setting process so that workers are protected in a 
timely way?
    Mr. Henshaw. Mr. Chairman, obviously, I was not involved in 
the budgetary process or any prioritization processes. If I am 
confirmed, one of the first things I would do is analyze the 
resources that we have available given the budget that we have 
available and the various activities and prioritize those 
appropriately.
    So I have not really gotten into any detail in respect to 
how that priority would look. I do know that we have some 
pressing issues today, and those pressing issues will take a 
major part of our effort in the first few months at least of 
this administration.
    The Chairman. One of the primary areas will be the issue of 
ergonomics and development of regulations. Some have claimed 
that employers do not understand how to implement ergonomic 
programs and make ergonomic adjustments in the workplace, that 
it is too costly or not feasible. You implemented an ergonomics 
program at Monsanto, and Secretary of Treasury Paul O'Neill has 
spoken eloquently about the benefits of ergonomics programs he 
instituted at Alcoa. I toured Alcoa with Secretary O'Neill, and 
I can tell you that that program works.
    Do you believe that there are successful ergonomics 
programs in existence now?
    Mr. Henshaw. Yes, sir, I do. We did have an integrated--and 
I use the word ``integrated'' because to me, repetitive motion 
injuries or hazards are one of the many hazards we have to 
handle in today's workplace--so we did not have an ergonomics 
program per se, but it was integrated into the total safety and 
health program. That program was centered around recognizing 
all hazards associated with the workplace, identifying the 
corrective measures that would be necessary to reduce injuries. 
How each individual company may address that, I do not know. I 
know how we did it in my previous practice, and it was quite 
effective.
    The Chairman. Well, this is important, because even in the 
regulations that were effectively suspended, they gave the 
maximum flexibility. There had to already be an injury in the 
particular company, and then there was flexibility by the 
company in developing its program. So this is an issue which 
this committee is very interested in. There are obviously 
divisions, but I believe there is very strong support for 
effective regulations in this area.
    Can we have your assurance that you will work with the 
committee and with us--work with the administration, but also 
work with us--to try to deal effectively with this issue?
    Mr. Henshaw. Yes, sir, you do.
    The Chairman. There are some who claim that ergonomics is 
``junk science.'' I guess you would not agree with that 
characterization.
    Mr. Henshaw. I do not know the context in which that was 
made.
    The Chairman. All right. That is fair enough.
    Mr. Henshaw. Obviously, repetitive trauma injuries and 
illnesses are real, and we need to address them appropriately.
    The Chairman. My time is moving on, and I want to ask you 
about--and I mentioned this to you just prior to the hearing--a 
July 29 article in The Chicago Tribune that detailed how 
workers in electronics, recycling, machining, and the dental 
industry among others have been harmed by exposure to highly 
toxic beryllium metal. The article states that employers are 
not complying with OSHA and that OSHA is not enforcing 
regulations and guidelines covering beryllium. For example, on 
a spot-check of 30 businesses working with beryllium, the 
newspaper found that none of the companies was following OSHA's 
recommended safeguards. The newspaper found that OSHA rarely 
inspects the companies handling beryllium.
    Are you aware of health problems caused by exposure to 
beryllium?
    Mr. Henshaw. I know of the toxicology and the standards 
associated with preventing those kinds of injuries. I do not 
know the circumstances of which you are speaking.
    The Chairman. That is fine. I mentioned that, and in 
fairness, you had not seen the article before, and I do not 
expect you to be able to comment on it other than to give the 
assurance that wherever these beryllium or other kinds of 
hazards, you are going to be vigilant in terms of ensuring that 
the greatest protection possible will be there for those 
workers.
    Mr. Henshaw. Yes, sir.
    The Chairman. After you are confirmed, will you review that 
situation and let us know what your own reaction is to that 
particular problem?
    Mr. Henshaw. Yes, sir.
    The Chairman. My time is up.
    Senator Enzi?
    Senator Enzi. Thank you, Mr. Chairman. I particularly want 
to thank you for bringing Mr. Henshaw's hearing up today and 
will, of course, appreciate any efforts that are made to 
expedite getting the appointment completed so that we have 
people on staff so that we do not have vacancies over there and 
they can take care of that. So I do thank you very much for 
that.
    The Chairman. We will attempt, Mr. Henshaw, after we 
complete the hearing, which I anticipate we will, to work to 
see if we cannot get the approval prior to the August break. 
That would be my intention, and Senator Enzi, if you can help 
us to work that out with our Republican colleagues, we would be 
glad to try to do that--we do not want to anticipate, Mr. 
Henshaw. We have still got to go over on this side of the aisle 
and hold out that little carrot. [Laughter.]
    Mr. Henshaw. I am anxious; I am ready.
    Senator Enzi. I do want to join the chairman in his 
comments about the need for funds as well. I would be 
interested in your evaluation of your budget. I have also 
appreciated the effort on both sides of the aisle to see that 
funding increases that came in were divided between the 
enforcement and the consultation. I think that that has been a 
very helpful trend for bringing both sides together to make 
sure we do have a concentration in safety.
    In light of the ergonomics questions that you just had, I 
cannot help but mention that in following the press this week, 
I noticed that California, often considered a leader in all 
kinds of laws and one of the States that I mentioned during the 
debate on ergonomics, had about one and a half pages of 
regulations. Somebody must have decided they needed to review 
that since they only had one and a half pages of regulations on 
ergonomics, so they took a look at whether to incorporate what 
we had looked at on the Federal level as a California law, and 
I noticed that they rejected it. So I am hoping that any 
reviews that are done on that take into consideration and 
hopefully some review of why they chose to reject what we also 
rejected.
    But that is not where my concentration of questions will 
be, of course. One of the things that I found in my time here 
is that the VPP program, which is a program that is pretty much 
limited to big companies that are able to put a professional on 
staff to spend his or her time reviewing health situations, has 
made a dramatic change in major businesses in the country. I 
would be interested in making that a permanent program, making 
it a part of law, and I would be interested in your viewpoint 
on that.
    Mr. Henshaw. Senator, I am a very strong supporter of 
voluntary efforts, efforts that will encourage groups to take 
initiative on their own and devise and be innovative in how to 
advance the safety and health of various work forces. So I 
would be interested in any kind of voluntary effort to ensure 
that innovation and dialogue continue. I think the VPP program 
is an excellent program for those who choose to accept it and 
use it.
    There should be other tools in our toolbox where we can 
encourage others who may be at a different level than the VPP 
sites to use those tools and to advance the safety and health 
of the work force.
    Senator Enzi. Something that has disturbed me--I used to 
fill out reports for some of the companies on accidents, and I 
knew that that had to be in by January 31 and that it had to be 
posted on the bulletin board. So I was anxious to see what 
kinds of accidents there were around the Nation when I got back 
here, and I was very distressed to find out that I could not 
get--I could not get--access to the most frequent accidents, 
the most frequent body parts that are injured. I started 
looking at some of the compilation and found out that nothing 
is done with a lot of this effort. It would be my hope that I 
could encourage you to be more a part of the reporting process 
so we can get that out to people and that you would take a look 
at it and see how we can make that more effective. I would be 
interested in any ideas that you might have on that.
    Mr. Henshaw. Senator, I agree, and coming from the private 
sector, that is precisely what we did with our own data. We 
analyzed our data to find out what kinds of injuries, and that 
helped us to direct our resources in the right area.
    So to the extent that I can impact the way we record data 
and the way we analyze data, I will do that. It is a useful 
tool.
    Senator Enzi. Thank you.
    Another thing that I have done is looked at some of the 
safety records, and I have found that those States that are 
State plan States seem to have a lower accident rate. Would you 
care to reflect on that and tell me how you think the Federal 
effort ought to go in regard to State plan States or 
encouraging more States? What do you think can be done there?
    Mr. Henshaw. Certainly, Senator, I have seen similar 
reports about State plan effectiveness and State plan programs, 
and there must be something there, because certainly the data 
show that some of them are much safer and have lower incidence 
rates.
    What causes that, I do not know, and it would be 
speculation on my part to speculate now as to what the reasons 
are. However, it seems appropriate to encourage more States to 
take that action. Again, anything we can do to advance safety 
and health, we ought to try, and that could be one of the tools 
in our tool box to get more States to come up with State plan 
programs.
    Senator Enzi. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Wellstone?
    Senator Wellstone. Thank you, Mr. Chairman.
    First of all, Mr. Henshaw, the chairman asked you the 
question, and I think your answer was important--that is to 
say, as a certified industrial hygienist and safety 
professional, the chairman asked whether you thought excessive 
repetition, force, and manual handling put workers at increased 
risk, and I think you said that yes, it is a problem.
    Then, the second part was about ``junk science,'' and you 
did not know the context of that quote. Obviously, we are 
focused on the National Academy of Sciences study which we 
think is terribly important.
    Let me ask you this. Have you made a determination in your 
own mind as to what the approach of OSHA should be, and in 
particular, have you ruled out the possibility that OSHA should 
do a rule?
    Mr. Henshaw. Senator, I am coming at this with sort of a 
fresh set of eyes, because I was not involved in the previous 
ergonomics rule. I have not read any of the record that is on 
record of the previous rule, nor have I been involved in the 
development and reading the information that came through the 
recent forums on ergonomics.
    I think it is very appropriate for us to review the 
appropriate information and then study that information, 
analyze it, and determine what our next steps are. Certainly 
the options, as the Secretary laid out, are within our realm, 
and we need to consider all of those. What the decision is as 
far as going forward, we have to wait until we review all of 
the information--or, I have to review all of the information.
    Senator Wellstone. At last month's hearings on repetitive 
stress injuries, I raised some concerns about particular 
industries where we have seen a significant jump in repetitive 
stress injury rates. Some examples I gave, just looking over 
the last several years, included from 1998 to 1999, actually, 
just a one-year period, veterinary services, 80 percent 
increase; finishing plants, cotton, 202 percent increase; 
plastics, bottles, 132 percent increase; computer and data 
processing services, 53 percent increase.
    Have you looked at the comparative repetitive stress injury 
rates? Is it something that you think OSHA should pay attention 
to? And I guess my question is whether you can make a 
commitment today that you will for sure look at the data and at 
other data OSHA might have, and then report back to the 
committee on your findings and what course of action we could 
take.
    Mr. Henshaw. Senator, I do not know the data to which you 
refer; I have not seen those data. My experience has really 
come from a different side, and I am coming into this, as I 
said, cold. I have not reviewed the previous record nor the 
information that we are receiving today and until tomorrow, 
when I think the record closes for the forum gathering 
information. I have not read that.
    However, it is appropriate--I would not be a responsible 
professional if I did not consider all relevant data before we 
make decisions on what the next steps are. We have committed--
the Secretary has committed, and I am very much in agreement 
with this commitment--we will review the information, and we 
will determine what the next steps are in September.
    Senator Wellstone. This source was the Bureau of Labor 
Statistics, Department of Labor.
    On the ergonomics record, when you say you are going to now 
build the record, you are not saying that the prior OSHA record 
is not appropriate, are you? You did not mean to suggest that, 
did you?
    Mr. Henshaw. Senator, I have not seen the previous 
information. All I can say is that going forward, we have to 
review all the appropriate information, and should the old 
record contain appropriate information, that needs to be 
included.
    Senator Wellstone. Before I run out of time, I received a 
letter from the International Brotherhood of Electrical 
Workers, IBEW, in regard to a situation with respect to an 
electric power line contractor that I would appreciate your 
investigating. I do not have firsthand information or knowledge 
about all of this, but if it is accurate, this is a serious 
problem that I think illustrates some of the inadequacies of 
the current OSHA penalties--the inadequacy of the ``hammer'' 
that you talked about.
    I will give you a copy of the letter and ask if you would 
take a look at it, but the essentials are that this contractor 
operates in a five-State area spanning from Oklahoma to Georgia 
and employs linemen, equipment operators, apprentices and 
groundsmen who work on voltages ranging from 120 volts to as 
high as 500,000 volts. There have been unusual numbers of 
deaths, dismemberments, and major illnesses; 12 fatalities in 
less than 9 years, 10 of which have occurred in the last 4 
years, with fines totalling--are you ready for this--$337,000.
    So there is a pattern. You have a fatality, it is 
investigated by OSHA, there is a fine, the contractor 
negotiates the fine down, it goes into the history books and is 
forgotten.
    My question is whether you would be willing to look into 
this matter--again, I will give you the letter--and report back 
to the committee on your findings and maybe what course of 
action OSHA could take. And would you include in that review 
whether this kind of situation might call for more stringent 
penalties. As you know, I have been a little confused as to 
why, when the employer--and thank God, there are not very 
many--but when the employer willfully takes action which leads 
to the death of worker, it is still a misdemeanor.
    Mr. Henshaw. Senator, I have not seen what you are 
referring to. Clearly, I think that strong enforcement has to 
be a deterrent; it has to be a deterrent to those employers who 
choose not to do the right thing and choose not to protect 
their employees.
    What that number is, what the proper approach is, may vary. 
I would be willing to work with you on that issue if confirmed.
    Senator Wellstone. I appreciate it.
    I will just take the final minute that I have, and again, I 
want to talk about your emphasis on enforcement--and I 
appreciate that. The budget--and the chairman mentioned this--
that the administration has submitted basically flat-lines this 
when it comes to OSHA. My question is whether or not we can 
have adequate enforcement with this budget. It is interesting--
we have 2,000 Federal and State OSHA inspectors responsible for 
enforcing the law at nearly 8 million workplaces; by contrast, 
we have 10,000 meat inspectors for a couple of hundred plants. 
So I am not sure that the resources at this point in time are 
sufficient, and I wanted to ask you--it is not a trick 
question, but I ask it with a twinkle in my eye--whether you 
would join with us in trying to get some additional 
appropriations for OSHA enforcement.
    Mr. Henshaw. Senator, obviously, if confirmed, resources is 
going to be a very sensitive subject for me. To accomplish our 
goals, we need to make sure that we have the proper resources.
    However, at the same time, once confirmed, I need to go in 
and look at the priorities, look at where we are spending money 
and in which areas.
    Also, we need to recognize that, as I mentioned in my 
testimony, in this tool box, the hammer is needed for some 
situations; in other situations, other tools will be needed. We 
need to make sure that we have those tools ready to apply in 
those circumstances.
    So once confirmed, I will be glad to look at our resources 
and make sure they are allocated appropriately.
    Senator Wellstone. I have other questions, but I am out of 
time.
    Thank you, Mr. Chairman.
    The Chairman. Senator Clinton?
    Senator Clinton. Mr. Chairman, I would like the record to 
note that Mr. Henshaw's granddaughters fell asleep before I 
began my testimony. [Laughter.]
    Senator Wellstone. I would like the record to show that it 
was before I started my questioning. [Laughter.]
    Senator Clinton. I think that is a matter of some debate.
    The Chairman. Let us blame Enzi.
    Senator Wellstone. It was over there; it was Enzi, it was 
Enzi. I watched it. [Laughter.]
    Senator Clinton. I think it might have been a bipartisan 
effort. It just shows their good sense.
    Senator Enzi. I am willing to claim responsibility for 
having a soothing effect on young people. [Laughter.]
    Senator Clinton. Mr. Henshaw, we are delighted to welcome 
you here today, and I am personally very pleased that the 
President has nominated someone of your caliber and concern to 
head this important governmental function.
    To be director of the Occupational Safety and Health 
Administration is really to be the symbol of worker safety in 
our country and to stand on the shoulders of so many people 
going back 100 years who began the march toward concern about, 
in the first instance, and then action on behalf of workers. 
From your record and everything that I have been able to learn 
about you, you are a worthy successor to all those who have 
come before.
    I want to reiterate a comment that the chairman made in his 
opening statement, and that is that we have seen what a 
difference leadership makes in OSHA. During the 1980's, there 
was a systematic weakening of OSHA, and under the guise of so-
called regulatory reform, regulations were rolled back, and 
enforcement was weakened to the point of being meaningless. The 
result, to no one's surprise, was that workplace injuries 
actually increased significantly.
    During the past 8 years, there has been a greater focus on 
enforcement and standard-setting, supplemented and balanced by 
the kind of compliance assistance and outreach and training and 
education that you, from your experience, know is essential. 
You cannot just issue regulations and point fingers at 
business; you have to be there to help them understand what the 
potential safety hazards are and work with them to resolve 
those. In fact, this focus led to a significant decrease in 
injuries. So we know what works. We know that best practices 
and the kind of balance and experience that you bring before us 
today is a very important statement about the priority that 
OSHA should have.
    I think it is understandable that a number of us are 
concerned about the action taken early on in this Congress to 
roll back the ergonomics regulation, and we are going to look 
to you to help us sort all of this out. I think many of us 
would have been willing to listen to legitimate concerns even 
though this standard had been 10 years in the making and was 
based on very solid research from the National Academy of 
Sciences, but that is water over the dam, and the issue now is 
how do we protect workers in the modern workplace. We know that 
the modern workplace requires a lot of small motor movements; 
it is not principally toting and lifting and bending so much as 
movements on a keyboard or on a repetitive assembly line.
    So we are going to look to you to help us try to ensure 
that the modern workplace is as safe as it possibly can be.
    I know, too, that the balance between enforcement and 
education is a very important one to you, and I think we could 
do with some re-education about the importance of workplace 
safety, and that is not only aimed at employers but really at 
the public in general.
    I want to mention one area of specific concern. Over the 
past several weeks, Newsday, one of New York's great 
newspapers, has run a very thoughtful series on the issues of 
terrible safety and health risks faced by immigrant workers in 
our Nation. The series was based on a 10-month investigation by 
Newsday reporter Tom Mayer. I would ask, Mr. Chairman, that 
this series be submitted for the record of this hearing.
    The Chairman. It will be so included.
    [The documents referred are in Newsday, July 22, 24, 25, 
and August 16, 2001.]
    Senator Clinton. News Day reports that OSHA has done little 
to educate business, let alone enforce Federal Government 
safety and health standards in industries where mostly 
immigrants are employed. And with the President's recent 
statements of concern about the immigrants in our country and 
with the recognition that immigrants are doing many of the jobs 
that keep our economy going and in fact have really fueled a 
lot of our economic growth, it seems inappropriate, if not 
grossly unfair, to subject these people to unsafe working 
conditions.
    The series reported additionally that OSHA rarely 
investigates the deaths of immigrant workers on the job. In 
fact, the newspaper's reporting concluded that at least 874 
immigrant deaths nationwide were not reviewed by safety 
inspectors, including 202 incidents in New York alone.
    So I hope that this will be a priority for OSHA under your 
leadership. I believe that we should be just as concerned about 
an unsafe workplace for an immigrant who is trying to improve 
the lot of himself and his family as we would someone whose 
family has been here since the Mayflower. It should not matter; 
our workplaces should be safe.
    So I would ask, too, that you perhaps take a look at what 
could be done. Some of it may go to the budget--that has 
already been raised--so that we have adequate inspectors to try 
to protect 874 deaths nationwide. And I think maybe you could 
help us hold an oversight hearing, since you are beginning your 
tenure, to find out what we can do better and how we can help 
you do the best possible job for this.
    Based on your experience, do you have just any initial 
thoughts about what the agency could do to provide more 
support, both for the businesses that employ largely immigrant 
workers and for the immigrants themselves so that we do not 
have to read about these kinds of statistics?
    Mr. Henshaw. Senator, I appreciate that question and 
comment. I have read some of those accounts, and I share your 
concern.
    I really cannot speculate as to why or the detail around 
those issues. Certainly we need to address it. Our objective 
and the mandate by Congress is to cover all workers, and we 
must do that. I think we also have to make sure that employers 
know what their obligations are; and that includes reporting. I 
can only speculate that possibly there might be unreporting 
because they are immigrants, and that is a concern.
    But I would be glad to work with you and others on this 
committee to make sure we cover all workers, including 
immigrants.
    Senator Clinton. I look forward to working with you on this 
issue and on the other important matters under your 
jurisdiction. And I am delighted that your entire family--and 
the 100 more out in the hall--could be here today. I thank you 
for your commitment to bringing the kind of expertise and 
balance to this agency that we know makes it work.
    Thank you very much.
    The Chairman. Thank you very much.
    If there are no other questions, we will leave the record 
open briefly, and we will do the best we can to expedite your 
confirmation.
    We want to thank you very much, Mr. Henshaw. I think you 
have gotten the sense that we want to work very closely with 
you and that you will get broad support from our committee, and 
we look forward to working with you in the future.
    Mr. Henshaw. Thank you, Senator.
    The Chairman. The committee stands in recess.
    [Additional material follows:]

                          ADDITIONAL MATERIAL

                 Prepared Statement of Senator Carnahan

    I regret that I was unable to attend this hearing due to a conflict 
with another Committee meeting. But I want the Health, Education, Labor 
and Pensions Committee to know of my support for Mr. Henshaw's 
nomination to be Assistant Secretary of Labor for the Occupational 
Safety and Health Administration.
    OSHA's mission is to save lives, prevent injuries and protect the 
health of America's workers.
    Since OSHA was created in 1971, occupational deaths have been cut 
in half and injuries have,declined by 40 percent. I believe that these 
figures demonstrate the important role that OSHA has played, and should 
continue to play, in promoting workplace safety.
    Protecting American workers, however, is an ongoing challenge. In 
1999, approximately 6.3 of every 100 workers experienced a job-related 
injury or illness. And 6,023 workers lost their lives on the job.
    Mr. Henshaw's challenge will be to improve the agency's performance 
to ensure that the more than 100 million American workers who depend on 
OSHA will have a safe place to work.
    I am pleased that President Bush has put forward such an eminently 
qualified Missourian. Mr. Henshaw is a safety and health professional. 
For the past two decades, he has held a number of different positions 
in which he has been responsible for ensuring safe workplaces.
    Mr. Henshaw has authored a number of articles and made a variety of 
presentations on health and safety for trade publications and different 
organizations.
    Mr. Chairman, I am pleased to support this nomination, and I look 
forward to working with Mr. Henshaw once he is confirmed. Thank you, 
Mr. Chairman.

    [Whereupon, at 11:01 a.m., the committee was adjourned.]


</pre></body></html>
